CAPITAL CASE
No. 21-____
IN THE

Supreme Court of the United States
____________________
KABONI SAVAGE,
Petitioner,
v.
UNITED STATES OF AMERICA.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
____________________
PETITION FOR A WRIT OF CERTIORARI
____________________
Barry J. Fisher
OFFICE OF FEDERAL PUBLIC
DEFENDER
39 North Pearl Street,
5th Floor
Albany, NY 12207
(518) 650-9031

Jonathan Schneller
Counsel of Record
Sarah E. Higgins
O’MELVENY & MYERS LLP
400 S. Hope St.
Los Angeles, CA 90071
(213) 430-6000

Madeline S. Cohen
1942 Broadway, Suite 314
Boulder, CO 80302
(303) 402-6933

Grace E. Leeper
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5300

Lawrence S. Lustberg
GIBBONS, P.C.
One Gateway Center
Newark, NJ 07102
(973) 596-4731

i
QUESTION PRESENTED
Federal Rule of Appellate Procedure 10 affords litigants multiple tools to ensure a complete appellate
record. Rule 10(c) states that if a hearing transcript is
unavailable, “the appellant may prepare a statement
of the … proceedings from the best available means,”
which must then be served on the appellee for objection and presented to the district court for settlement.
Under Rule 10(e)(2), material omissions from the record “may be corrected and a supplemental record may
be certified” on “stipulation of the parties,” by “the district court,” or “by the court of appeals.”
In this federal capital case, the Third Circuit held
that when an appellant lacks any “means” to “prepare
a statement of” untranscribed “proceedings” under
Rule 10(c), the district court has no obligation to assist in reconstructing those proceedings unless the appellant first files a declaration “saying he does not remember what happened.” The court of appeals further held that when an appellant wishes to review
and supplement the record with undocketed trial correspondence in the district court’s possession, he must
first show how the correspondence would “give rise to
‘any difference[s]’ about whether the record truly discloses what occurred in the district court.”
The question this case presents is:
Whether the Third Circuit properly held—in conflict with decades of federal practice endorsing flexible procedures to assemble a complete record on appeal—that an appellant seeking a complete appellate
record must overcome procedural impediments lacking any basis in Rule 10’s text.

ii

PARTIES TO THE PROCEEDING
Petitioner is Kaboni Savage, defendant-appellant
below.
The United States is the respondent on review.

iii
STATEMENT OF RELATED PROCEEDINGS
There are no related proceedings in this case.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED ........................................ i
PARTIES TO THE PROCEEDING .......................... ii
STATEMENT OF RELATED PROCEEDINGS ..... iii
PETITION FOR A WRIT OF CERTIORARI ........... 1
OPINIONS BELOW .................................................. 1
JURISDICTION ........................................................ 1
RELEVANT PROVISION ......................................... 1
INTRODUCTION ..................................................... 2
STATEMENT ............................................................ 7
A. The district court denies Savage’s
request for missing record materials
with potential significance to his
appeal. ........................................................... 7
B. The Third Circuit denies Savage’s
motion to supplement and reconstruct
the record under Rule 10. ........................... 13
REASONS FOR GRANTING THE PETITION ..... 17
I.

The Third Circuit’s extra-textual
limitations on Rule 10 break with decades
of precedent permitting flexible record
reconstruction in federal criminal appeals...... 17

II. The Third Circuit misread Rule 10 ................. 27
III. The question presented holds exceptional
importance for federal appellate practice........ 34
CONCLUSION ........................................................ 36

v
TABLE OF CONTENTS
(continued)

Page

APPENDICES
APPENDIX A
Opinion of the U.S. Court of Appeals for the
Third Circuit (Aug. 11, 2020) ............................ 1a
APPENDIX B
Memorandum of the U.S. District Court for
the Eastern District of Pennsylvania
(Sept. 25, 2017) .............................................. 194a
APPENDIX C
Order of the U.S. District Court for
the Eastern District of Pennsylvania
(Sept. 25, 2017) .............................................. 214a
APPENDIX D
Order of the U.S. Court of Appeals for the
Third Circuit denying rehearing
(Oct. 30, 2020) ................................................ 215a
APPENDIX E
Mandate of the U.S. Court of Appeals for the
Third Circuit (Nov. 9, 2020) .......................... 217a
APPENDIX F
Relevant Statutory Provisions............................ 219a

vi
TABLE OF AUTHORITIES
Page(s)
CASES
Barefoot v. Estelle,
463 U.S. 880 (1983) ............................................ 33
Convertino v. United States Dep’t of Justice,
795 F.3d 587 (6th Cir. 2015).............................. 23
Dobbs v. Zant,
506 U.S. 357 (1993) ............................................ 34
Ford v. Georgia,
498 U.S. 411 (1991) ............................................ 30
Gregg v. Georgia,
428 U.S. 153 (1976) ........................................ 3, 34
Hardy v. United States,
375 U.S. 277 (1964) ........................................ 6, 36
Miller v. United States,
317 U.S. 192 (1942) ........................................ 3, 35
Parker v. Della Rocco,
252 F.3d 663 (2d Cir. 2001) ............................... 18
Stevo v. Frasor,
662 F.3d 880 (7th Cir. 2011).........................23, 32
United States v. Brand,
80 F.3d 560 (1st Cir. 1996) ...........................23, 24
United States v. Coleman,
767 F. App’x 881 (11th Cir. 2019) ..................... 18
United States v. Graham,
711 F.3d 445 (4th Cir. 2013).............................. 20
United States v. Greco,
938 F.3d 891 (7th Cir. 2019).........................32, 33
United States v. Huggins,
191 F.3d 532 (4th Cir. 1999).............................. 24

vii
TABLE OF AUTHORITIES
(continued)
Page(s)
United States v. LaSpesa,
956 F.2d 1027 (11th Cir. 1992).....................24, 30
United States v. Moreno,
857 F.3d 723 (5th Cir 2017)............................... 18
United States v. Pace,
10 F.3d 1106 (5th Cir. 1993).............................. 24
United States v. Perkins,
498 F.2d 1054 (D.C. Cir. 1974) .........21, 22, 24, 30
United States v. Preciado-Cordobas,
981 F.2d 1206 (11th Cir. 1993).........20, 21, 23, 24
United States v. Ruff,
472 F.3d 1044 (8th Cir. 2007).......................18, 32
United States v. Selva,
559 F.2d 1303 (5th Cir. 1977)............................ 30
United States v. Sevilla,
174 F.2d 879 (2d Cir. 1949) ............................... 24
United States v. Sheridan,
329 U.S. 379 (1946) .......................................18, 22
United States v. Sierra,
981 F.2d 123 (3d Cir. 1992) ............................... 23
United States v. Wilson,
16 F.3d 1027 (9th Cir. 1994).............................. 29
Yarrington v. Davies,
992 F.2d 1077 (10th Cir. 1993).......................... 23
STATUTES
18 U.S.C. § 3595(b).................................................. 34
OTHER AUTHORITIES
Advisory Committtee Notes to Rule 75, 1964 ........ 18

viii
TABLE OF AUTHORITIES
(continued)
Page(s)
American Bar Association, Criminal Justice
Standards for the Defense Function 49.3(d) (4th ed. 2017) ........................................... 35
Bureau of Justice Assistance, Contracting for
Indigent Defense Services: A Special
Report (April 2000) ............................................ 35
Criminal Justice Act Plan, United States
Court of Appeals for the Tenth Circuit
(Dec. 15, 2015).................................................... 19
Griffin, 1 Federal Criminal Appeals § 6:29 ............ 31
Moore, 20 Moore’s Federal Practice § 310.40......... 31
United States Courts, Federal Judicial
Caseload Statistics 2019.................................... 35
Wright & Miller, Federal Practice &
Procedure § 3956.4........................................19, 31
RULES
Fed. R. App. P. 10(a) ............................................... 18
Fed. R. App. P. 10(c) .................................4, 19, 22, 28
Fed. R. App. P. 10(e)(1) ..................................5, 16, 31
Fed. R. App. P. 10(e)(2) .................................... passim
Fed. R. Civ. P. 75(d) (as amended, 1966) ............... 22
Fed. R. Crim. P. 52(b) ............................................. 35

PETITION FOR A WRIT OF CERTIORARI
Kaboni Savage respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Third Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (App. 1a) is
available at United States v. Savage, 970 F.3d 217 (3d
Cir. 2020). The district court’s denial of Savage’s Motion for a Complete and Accurate Record for Appeal is
unreported and available at 2017 WL 4273617. (App.
214a).
JURISDICTION
The court of appeals entered judgment on August
11, 2020, App. 1a, and denied rehearing en banc on
October 30, 2020, App. 215a. This Court has jurisdiction under 28 U.S.C. § 1254(1).
RELEVANT PROVISION
The rule involved is Federal Rule of Appellate Procedure 10. It is reproduced in full in Appendix F to
this brief. The relevant portions of Rule 10 read:
Rule 10. The Record on Appeal
***
(c) Statement of the Evidence When the Proceedings Were Not Recorded or When a Transcript Is Unavailable. If the transcript of a hearing
or trial is unavailable, the appellant may prepare a
statement of the evidence or proceedings from the
best available means, including the appellant's recollection. The statement must be served on the appel-

2
lee, who may serve objections or proposed amendments within 14 days after being served. The statement and any objections or proposed amendments
must then be submitted to the district court for settlement and approval. As settled and approved, the
statement must be included by the district clerk in the
record on appeal.
***
(e) Correction or Modification of the Record.
(1) If any difference arises about whether the record
truly discloses what occurred in the district court,
the difference must be submitted to and settled by
that court and the record conformed accordingly.
(2) If anything material to either party is omitted
from or misstated in the record by error or accident,
the omission or misstatement may be corrected and
a supplemental record may be certified and forwarded:
(A) on stipulation of the parties;
(B) by the district court before or after the record
has been forwarded; or
(C) by the court of appeals.
(3) All other questions as to the form and content of
the record must be presented to the court of appeals.
INTRODUCTION
For eight decades, this Court has recognized the
importance of a “proper record on appeal,” especially
in “criminal proceedings against poor persons in federal courts.” Miller v. United States, 317 U.S. 192,

3
193, 199 (1942). In indigent criminal appeals, a complete and accurate record allows court-appointed appellate counsel—who typically do not attend trials
and often lack trial counsel’s assistance—to understand what occurred at trial and identify reversible
errors. That function, this Court has observed, holds
particular significance in capital appeals such as this
case, where a complete appellate record stands as a
crucial “safeguard against arbitrariness and caprice.”
Gregg v. Georgia, 428 U.S. 153, 167, 198 (1976).
After reviewing the record materials available to
them, the newly appointed appellate counsel representing Kaboni Savage in his federal capital appeal
identified sizable and potentially material gaps in the
record. Trial transcripts referenced a trove of correspondence—including emails, letters, and other submissions between the district court and various trial
participants—that the district court had not docketed
and Savage’s appellate attorneys could not locate. The
transcripts also referred to an array of untranscribed
proceedings, including sidebars, in-chamber conferences, and other oral communications. Clues in the
record suggested that many of the missing materials
pertained to substantive issues directly relevant to
Savage’s appeal. His attorneys therefore moved to fill
those gaps—once in the district court, and twice in the
Third Circuit—under Federal Rule of Appellate Procedure 10, which prescribes multiple mechanisms to
supplement an incomplete appellate record.
For as long as Rule 10 and its predecessors have
existed, federal courts have applied them flexibly and
pragmatically to ensure comprehensive and accurate
records in both criminal and civil appeals. They have

4
never required litigants to utter magic words or jump
through arcane procedural hoops to secure a complete
record on appeal. Indeed, courts of appeals frequently
order supplementation of the record sua sponte and
enlist all trial participants—including the district
court and the government—in a collaborative effort to
plug holes when appointed appellate counsel is unable to do so on its own.
In this case, the opposite occurred. Rather than accommodate Savage’s attempts to obtain a complete
appellate record, the district court and then the Third
Circuit turned their backs on longstanding federal
practice, requiring Savage to appeal on a record that
did not provide a full account of the proceedings that
produced his death sentence. The Third Circuit did
not deny that the missing materials had potential to
relevance to Savage’s appeal. Instead, it justified its
decision by inventing two novel procedural hurdles
present nowhere in Rule 10’s text.
First, in refusing to order the district court and
trial participants to aid in the reconstruction of untranscribed conferences, the Third Circuit grafted an
atextual procedural requirement onto Federal Rule of
Appellate Procedure 10(c). That provision instructs
that when a transcript for a trial proceeding is unavailable, the appellant “may prepare a statement of
the evidence or proceedings from the best available
means,” which “must be served on the appellee” for
objections and amendments, with any disagreements
to be settled by the district court. Savage’s appointed
appellate counsel repeatedly explained that they
lacked any basis to create a statement summarizing
sidebars, bench conferences, and other conversations

5
from a nearly seven-month trial that they did not attend, especially since Savage’s various trial counsel
could not or would not help them. The Third Circuit
nevertheless held that Savage had forfeited the right
to reconstruct those proceedings by failing to “submit
a declaration saying he does not remember what happened.” App. 22a. But nothing in Rule 10(c) suggests
that when an appellant lacks the “means” to “prepare
a statement of the evidence,” he must let the court
know by way of declaration, rather than, as Savage’s
counsel did here, in a motion under Rule 10. And no
authority in any jurisdiction has ever previously
hinted at such a requirement.
Second, the Third Circuit refused to order the
district court to give Savage the court’s copies of undocketed trial correspondence on the view that Savage had an “obligation” to first explain “how the purportedly missing items could or would give rise to ‘any
difference[s] … about whether the record truly discloses what occurred in the district court’” and to then
have the district court resolve “any such differences.”
App. 18a (quoting Fed. R. App. P. 10(e)(1).) That ruling erroneously rested on a portion of Rule 10 addressing disputes among the parties about the appellate record’s accuracy. See Fed. R. App. P. 10(e)(1).
But the correspondence omitted from the record was
not disputed; it was simply missing. A different provision—Rule 10(e)(2)—speaks to “omission[s] or misstatement[s]” by “error or accident.” Rule 10(e)(2) neither requires the requesting party to identify disagreements about the record’s accuracy nor to present
such differences to the district court. Instead, it gives
both the district court and the court of appeals carte

6
blanche to correct any omissions and certify a supplemental record.
The manifest errors that led the Third Circuit to
deny a capital defendant a full appellate record would
merit this Court’s review on their own—but the damage goes further. “As any effective appellate advocate
will attest, the most basic and fundamental tool of his
profession is the complete trial transcript, through
which his trained fingers may leaf and his trained
eyes may roam in search of an error, a lead to an error, or even a basis upon which to urge a change in an
established and hitherto accepted principle of law.”
Hardy v. United States, 375 U.S. 277, 287-88 (1964)
(Goldberg, J., concurring). Access to a complete record
is especially crucial in the indigent criminal appeals
that make up a large portion of the federal appellate
caseload. In such cases, courts frequently appoint
dedicated appellate counsel who did not participate at
trial and may lack assistance from the defendant’s
trial lawyers. For decades, federal courts have served
as resources—not obstacles—when such new counsel
seek to secure a complete appellate record. That flexible and collaborative practice has long backstopped
appointed appellate attorneys’ ability to fulfill their
constitutional function.
The decision below throws these settled practices
and understandings into doubt. The Third Circuit’s
reasoning not only licenses courts and opposing parties to resist record reconstruction rather than assist
it but also threatens litigants attempting to compile a
complete record with hidden procedural traps with no
basis in Rule 10’s text. This Court should grant review

7
to reaffirm the vitality of time-honored norms encouraging the flexible and pragmatic construction of complete appellate records. That the court of appeals
sprung its novel innovations on the defendant in a
federal capital appeal only confirms the necessity of
this Court’s intervention.
STATEMENT
A. The district court denies Savage’s request
for missing record materials with potential significance to his appeal.
In April 2009, the government indicted Savage
and three codefendants, charging Savage with twelve
counts of murder in aid of racketeering, among other
serious charges. App. 10a-11a. The government noted
its intent to seek the death penalty. Id.
The trial of Savage and his codefendants spanned
nearly 100 court days, A-861, and resulted in a massive record reflecting the complexities of the case: over
30,000 pages in court transcripts, nearly 1,700 docket
entries, more than 400 government recordings that
were played for the jury, over 1,000 other admitted
government exhibits, and hundreds of defense exhibits. See A-2087-2088.1 The jury found Savage guilty
on all counts. Following penalty-phase proceedings, it
voted to sentence him to death on each eligible count.
After Savage’s conviction, his trial counsel moved
to withdraw. The Third Circuit granted the motion
Citations to the Record Appendix are formatted “A-##” to correspond to the page number in the electronic version of the Appendix filed in the Third Circuit. See Record Appendix, Case
No. 14-9003 (Oct. 28, 2018).
1

8
and appointed new counsel to represent Savage on appeal. (Order, Case No. 14-9003 (Oct. 23, 2014)).
As the newly appointed appellate counsel began
reviewing the trial record, they spotted references to
a large number of materials they could not locate.
Those materials included many pretrial, trial, and
sentencing-related proceedings for which no transcript was available, and large amounts of non-transcript materials that were not mentioned or could not
be accessed on the district court’s docket. A-862-63. To
plug those holes, appellate counsel obtained, indexed,
and reviewed massive paper and electronic files from
all four defendants’ trial counsel. Enlisting the help of
the district court clerk, appellate counsel shared descriptions of hundreds of missing materials and traveled to Philadelphia to review record materials at the
clerk’s office. A-863. Through those efforts, they succeeded in securing many additional portions of the
record, including electronic recordings of dozens of
untranscribed proceedings and a large number of
sealed pleadings and orders. A-863-64.
Still, substantial portions of the trial record remained missing. Savage’s trial lawyers were unable
or unwilling to provide further assistance in the record-completion process and had lost or destroyed their
copies of many of the record materials appellate counsel sought. (Savage’s Petition for Rehearing En Banc,
Case No. 14-9003 (Oct. 5, 2020), ECF No. 430 at 5,
14). Savage therefore moved, “under Federal Rule of
Appellate Procedure 10, for the relief required to obtain a complete and accurate record of what occurred
in th[e] [district] [c]ourt.” A-859. The motion sought
several categories of missing materials referenced

9
elsewhere in the record, many of which appeared to
have a direct bearing on key issues in Savage’s appeal.
Undocketed written communications. Savage’s motion explained that the trial record was “replete with references” to “scores if not hundreds” of
letters, courtroom submissions, e-mails, and other
written communications between the district court
and trial participants such as counsel and the jury.
A-864; A-873-74. Appellate counsel demonstrated
that, based on references elsewhere in the record,
much of that missing material appeared to relate to
potential issues in Savage’s appeal:
•

Jury instructions. The trial transcript contained references by the court and the government to various missing materials about jury
instructions, including sets of proposed and revised instructions exchanged between the parties and the court and instructions the court
sent to the jury room during both its guilt and
penalty-phase deliberations. A-874, A-2136-39;
A-16843 (prosecutor explaining that “we had a
lot of revised instructions going back and
forth”). Savage’s appeal ultimately advanced
two different claims of instructional error. See
Opening Appellate Brief, Case No. 14-9003
(Oct. 28, 2018) (“AB”), at 166, 192.

•

Substitution of counsel. The trial transcript
documented many pro se exchanges between
Savage and the district court that appeared to
discuss Savage’s request for substitution of
counsel. A-2132-34. It also referenced letters

10
from one of Savage’s trial counsel about his motion to withdraw. Id. The district court’s handling of Savage’s and his counsel’s motions was
ultimately the lead issue in Savage’s opening
merits brief on appeal.
•

Communications restrictions. Many other exchanges referenced in the trial transcript related to the communication and visitation restrictions the government imposed on Savage.
A-2360. Savage’s appellate brief ultimately
challenged how those restrictions allowed the
government to make prejudicial statements
about his limited contact with his children
while incarcerated. AB 302.

On top of these issues that Savage raised on appeal, the record reveals the existence of missing materials bearing on other substantive issues with appellate significance, including: evidentiary objections,
proffers, and related submissions at both the guilt
and sentencing phases, A-876 n.11, A-2135-39; motions, memoranda, and exhibits about unspecified
subjects, A-2134-39; and discovery disputes, A-213536.
Savage’s Rule 10 motion emphasized that this list
of missing materials was necessarily “fragmentary
and incomplete,” since it could not encompass similar
materials not referenced elsewhere in the record. A875-76. It further explained that while “some” of the
missing materials appeared to be located in files trial
counsel had shared, those materials could not produce
a complete record and would also raise authenticity
concerns. A-877 n.13. Among other things, trial counsel had failed to make available to appellate counsel

11
most of their emails with the court and apparently
had not kept copies of much of the paper correspondence from trial. A-877. Savage thus requested that the
district court “simply mak[e] available its file of all
such communications in the case,” A-875, specifically
seeking “copies of all non-ECF written communications (including e-mail communications) that the
Court or its staff had with any counsel for the government or any defendant, with any defendant directly,
or with the jury or any prospective or seated jurors.”
A-877-78.
Untranscribed proceedings. The available record also referenced a host of “unrecorded sidebars,
conferences and other such proceedings,” such as
bench conferences, in-chambers conferences, and telephone conferences. A-878. The motion explained that
those communications, too, touched on “substantive
matters potentially relevant to Mr. Savage’s appeal,”
A-878, including:
•

The charge conference at the close of Savage’s
trial, see A-878;

•

The charge conference at Savage’s capital-sentencing hearing, see A-878;

•

Chambers conferences about Savage’s conditions of confinement, see A-983;

•

Off-the-record communications with jurors, including communications about photos of deceased victims in this case, see AB 353 (citing
A.11665); and

•

Savage’s motions for substitution of counsel.
AB 348 (citing A.983-95; A.2360-63).

12
The motion listed unrecorded conferences that appellate counsel had been able to identify, but emphasized
that “there were no doubt many such instances that
counsel is unaware of and cannot determine.” A-878.
Savage thus asked the district court to “share with
appellate counsel any notes or other records memorializing, summarizing, or otherwise documenting
these, or any other, sidebars, conferences, and other
such unrecorded proceedings” and to “direct all trial
counsel for all parties to do the same.” A-879. Savage
explained that “[h]opefully such notes and other records will enable appellate counsel to pursue reconstructions of any potentially unrecorded proceedings,
pursuant to Federal Rule of Appellate Procedure
10(c).” A-879. His appointed appellate counsel, Savage noted, “cannot … reasonably be expected to submit a statement of what occurred” in conferences they
did not attend “without … assistance from the Court
and its staff, the prosecutors, and the various trial attorneys, all of whom (unlike Mr. Savage’s appellate
counsel) were present for those proceedings.” A-1009.
Other Materials. The motion identified an array
of additional missing record materials, including government documentary exhibits, government physical
exhibits, defense exhibits, ECF materials that the
clerk’s office had failed to provide, and jury lists the
court created during voir dire. A-869-80.
The district court denied all of Savage’s requests
save for the court’s jury lists and certain defense exhibits. Ruling that the missing correspondence between the parties and the court was not substantive
and did not constitute a part of the record on appeal
under Rule 10, the court described Savage’s request

13
for the materials as an “extraordinary discovery request,” App. 206a, that “would impose an extraordinary burden on the District Court and the parties,”
App. 200a. The court did not explain its conclusion
that the communications were non-substantive and
did not acknowledge Savage’s demonstration that
many of those communications pertained to substantive matters important to his appeal.
The court characterized Savage’s request for help
reconstructing the substance of untranscribed proceedings as a request for “the personal notes and files
of the District Court Judge, and of every attorney involved in the case.” App. 207a. Again overlooking Savage’s demonstration of relevance, the court stated
that “[m]ost” of these proceedings “dealt with scheduling issues.” App. 208a. It held that “[e]ven if the unrecorded ‘proceedings’ were substantive,” Savage was
obligated to proceed by “submit[ting] a statement in
accordance with Rule 10(c)”—an impossible task for
appellate counsel not present for the trial proceedings. App. 208a-209a. The court did not acknowledge
that Savage himself was absent from many of the
missing proceedings or his counsel’s explanation that
they lacked the means to prepare a Rule 10(c) statement without assistance from the court, the government, and trial counsel. See supra at 12, 14.
B. The Third Circuit denies Savage’s motion
to supplement and reconstruct the record
under Rule 10.
After Savage informed the court of appeals about
the district court’s denial of his Rule 10 motion, it invited him to file “an application regarding those portions of the record … that he contends have not been

14
previously made available yet [and] are required to
proceed.” (Order, Case No. 14-9003 (Sept. 27, 2017)).
Appellate counsel then filed another Rule 10 motion,
this time with the Third Circuit, seeking the same
material. See A-2085-2377, 2394-2408. Among other
arguments, Savage explained that the district court’s
requirement that he seek reconstruction of untranscribed proceedings by submitting a “statement of the
evidence” under Rule 10(c) “ignores the facts that Savage’s current counsel did not represent him at trial
and that they can neither make his trial attorneys
spend the substantial time necessary to identify and
convey what happened at each of the many unrecorded proceedings … nor arrange to compensate
them for that work.” A-2110.
Savage also requested an order “deeming all of the
undocketed written communications” his counsel had
identified “to be part of the record on appeal” and “directing the district court to provide Savage’s counsel
with copies of additional undocketed written communications between the court and counsel in the case.”
A-2126-27. Finally, Savage asked to obtain and supplement the record with the various government and
defense exhibits his appellate counsel had been unable to secure.
A Third Circuit panel directed the government and
Savage’s trial counsel to identify the exhibits submitted at trial and provide them to Savage’s appellate
counsel. See A-2410-2411. But, without explanation,
the Third Circuit denied the motion as to the untranscribed proceedings and the undocketed communications. A-2410-2411.
The court of appeals assured appellate counsel

15
that Savage would not be foreclosed from challenging
the adequacy of the record in his merits briefing. AB
340 n.1. Savage accepted that invitation. His merits
briefs on appeal reiterated his Rule 10 requests a
third time, asking the panel to remand for recovery
and reconstruction of the missing material. AB 36061; Reply Brief at 117, Case No. 14-9003 (Sept. 9,
2019).
In its decision on the merits, the Third Circuit denied Savage’s request for help identifying undocketed
communications and reconstructing the untranscribed proceedings. Unlike the district court, the
Third Circuit did not dispute that the requested materials could constitute part of the appellate record if
they had been properly added to the record under
Rule 10. App. 17a-18a. Also unlike the district court,
the Third Circuit did not question that the requested
materials had potential relevance to issues Savage
raised or could have raised on appeal. But, as the
court of appeals saw it, for those “communications (or
their reconstructions) to have become part of the ‘record on appeal,’ Savage needed to have moved to supplement the record” under Rule 10—which, in the
court’s view, he had not done. App. 18a & n.9.
Like the district court, the Third Circuit held that
to supplement the record with untranscribed proceedings Savage was required to pursue reconstruction
under Rule 10(c). App. 16a. But whereas the district
court had ignored appointed appellate counsel’s inability to submit a “statement of the evidence” about
proceedings in which neither they nor their client had
participated, the Third Circuit imposed an unprece-

16
dented requirement: To initiate reconstruction, Savage himself was required to “submit a declaration saying he does not remember what happened, passing
the ball to the government to document its recollection and giving the defendant a chance to object before
allowing the District Judge to resolve any remaining
discrepancies in accordance with the provided documentation and with any notes he has retained and his
own recollections.” App. 22a.
The court likewise cited a perceived procedural
failure as grounds to reject Savage’s request for copies
of written exchanges between the district court and
other trial participants. See App. 18a n.9. Federal
Rule of Appellate Procedure 10(e)(1) states that
where “any difference arises about whether the record
truly discloses what occurred in the district court, the
difference must be submitted to and settled by that
court and the record conformed accordingly.” The
Third Circuit held that this provision foreclosed Savage’s request for undocketed communications because
Savage “ha[d] not articulated how the purportedly
missing items could or would give rise to ‘any differences … about whether the record truly discloses
what occurred in the district court,’ and, indeed, failed
to have any such differences settled by the District
Court, as was his obligation.” App. 18a. The court did
not address Savage’s request under Rule 10(e)(2),
App. 206a, which separately authorizes the parties,
the district court, or the court of appeals to supplement or correct the record when “anything material
to either party is omitted from …. the record by error
or accident.”
The Third Circuit thus held that, despite Savage’s

17
multiple formal requests for help in reconstructing
untranscribed exchanges and securing the written
communications he was missing, Savage had “fail[ed]
to pursue Rule 10 reconstruction.” App. 16a. On that
basis, it affirmed Savage’s conviction and death sentence despite the missing record materials.
Savage petitioned for rehearing en banc and the
court of appeals denied his petition on October 30,
2020. App. 215a.
REASONS FOR GRANTING THE PETITION
I.

The Third Circuit’s extra-textual limitations on Rule 10 break with decades of
precedent permitting flexible record reconstruction in federal criminal appeals.

The Third Circuit applied unwritten procedural
barriers of its own invention to deny Savage’s repeated motions to complete the appellate record. In
doing so, the court departed from—and cast doubt
on—well-established federal practice embracing flexible procedures to reconstruct and supplement missing record portions in criminal appeals.
1. a. The off-record conferences and court correspondence from Savage’s trial belonged in the record
of his appeal, and the Federal Rules of Appellate Procedure gave both the district court and court of appeals broad authority to include it in the record “in
the interest of seeing that substantial justice is done.”
United States v. Sheridan, 329 U.S. 379, 393 (1946).
As the Third Circuit correctly observed, the Federal Rules of Appellate Procedure define the record on
appeal as “the original papers and exhibits filed in the

18
district court,” the “transcript of proceedings, if any,”
and “a certified copy of the docket entries prepared by
the district clerk.” Fed. R. App. P. 10(a). The Advisory
Committee Notes on Rule 10’s substantially similar
predecessor explain that the rule safeguards the
“right to have incorporated in the record anything
which actually occurred in the trial court which [appellate counsel] thinks necessary to make his points
on appeal.” Advisory Committee Notes to Rule 75,
1964 (emphasis added). To that end, the courts of appeals have consistently understood the appellate record to encompass a wide array of communications
that “occurred in the district court,” id., such as a law
clerk’s email to counsel, United States v. Moreno, 857
F.3d 723, 727 (5th Cir 2017), letters describing offthe-record meetings in chambers, United States v.
Ruff, 472 F.3d 1044, 1047 & n.4 (8th Cir. 2007), and
correspondence between counsel on which the district
court is copied, see Parker v. Della Rocco, 252 F.3d
663, 665 n.2 (2d Cir. 2001); see also, e.g., United States
v. Coleman, 767 F. App’x 881, 885 n.* (11th Cir. 2019)
(copy of U.S. Probation Office letter assessing defendant’s eligibility for sentence reduction).
Consistent with its aim to provide an accurate representation of what happened at trial, Rule 10 prescribes two mechanisms to address omissions in the
appellate record. When a hearing or trial transcript is
unavailable for any reason, Rule 10(c) states that an
appellant “may” prepare a “statement of the evidence
or proceedings from the best available means, including the appellant’s recollection,” which must be
served on the appellee, “who may serve objections or
proposed amendments” that are then “submitted to

19
the district court for settlement and approval.” Meanwhile, Rule 10(e)(2) instructs that if “anything material to either party is omitted from … the record,” the
“omission … may be corrected” by stipulation of the
parties, by the district court, or by the court of appeals. Rule 10 thus “empowers” the parties, the district court, or “the court of appeals to correct material
omissions … in the record.” Wright & Miller, Federal
Practice & Procedure § 3956.4.
b. Rule 10 has special importance in indigent
criminal appeals, where defendants commonly depend on appellate counsel appointed after trial proceedings have concluded. See Criminal Justice Act
Plan, United States Court of Appeals for the Tenth
Circuit (Dec. 15, 2015) (establishing specialized Criminal Justice Act panel of appellate attorneys) (“While
the Court recognizes there may be benefits to
maintaining continuity of counsel … trial counsel
may not have the requisite skills, or the desire, to
represent an individual on appeal.”). Such counsel—
who lack firsthand knowledge of trial proceedings and
may be unable to call on trial counsel for assistance—
face difficult practical challenges in attempting to fill
record gaps. In those circumstances, the courts of appeals have long safeguarded criminal defendants’
right to complete appellate record by endorsing flexible procedures to collaboratively reconstruct the record—including enlisting the help of the district court
and the government when necessary.
Consider just a few examples. In United States v.
Graham, 711 F.3d 445 (4th Cir. 2013), appellate counsel appointed by the Fourth Circuit discovered that
the court reporter had failed to record or transcribe

20
wiretap recordings played for the jury. Id. at 450.
“Concerned that, as he had not been present for trial,
his incomplete knowledge of the trial record might impede his representation,” counsel asked—and the
Fourth Circuit agreed—to stay the appellate briefing
schedule to allow the defendant to return to the district court to pursue reconstruction under Rule 10. Id.
The government then produced a compact disc of the
recordings and transcripts it had prepared before trial
and provided attestations from a prosecutor and DEA
agent that those materials accurately reflected what
the jury heard. Id. The district court, in turn, conducted an evidentiary hearing at which the lead prosecutor and a DEA agent testified about their recollections of the trial and their pretrial preparation of the
government’s transcripts. Id. Based on that evidence,
the district court “made findings as to which calls, and
which portions of the calls were heard by the jury,”
thus “enabl[ing] [the defendant] to perfect his appeal.” Id. at 451–52 (quotations omitted).
In United States v. Preciado-Cordobas, 981 F.2d
1206 (11th Cir. 1993), despite learning before their
appeal that the court reporter had failed to transcribe
closing arguments, the defendants affirmatively “declined to prepare their own statement of the missing
evidence as permitted by Rule 10(c).” Id. at 1209. On
appeal, their appointed appellate counsel argued that
the transcription error required reversal. Id. at 1209,
1213. Rather than reverse outright, the Eleventh Circuit remanded under Rule 10(e), “directing the district court to attempt to reconstruct the closing arguments.” Id. at 1210. On remand, the district court held

21
an evidentiary hearing at which the government produced its own partial transcript of closing arguments,
the notes the lead prosecutor prepared for his closing
argument, the prosecutor’s written effort to reconstruct his argument, and his notes of the defendants’
closing statements. Id. at 1211. The various defendants’ trial attorneys likewise testified about their recollections of the closing arguments and produced their
trial notes. Id. The district court found that “the closing arguments” had “been reconstructed as much as
possible under the circumstances,” id. at 1211 (quotation omitted), and the Eleventh Circuit agreed that
the reconstruction painted “a sufficiently complete
picture of what transpired during the closing arguments” to enable appellate review. Id. at 1216.
Similarly, in United States v. Perkins, 498 F.2d
1054 (D.C. Cir. 1974), the court reporter failed to provide a full transcript and a substitute reporter was retained to transcribe her predecessor’s stenographic
notes. Id. at 1056. On appeal, “the underlying correspondence strongly suggested that with respect to
some of the jury instructions, the reporter did not take
down what the judge actually said in the courtroom.”
Id. at 1056. The D.C. Circuit remanded the case to determine “the extent to which the reporter failed to
make a verbatim account of the trial proceedings, and
the means used to correct or reconstruct … the record
under Rule 10(e).” Id. Because neither court reporter
was available to testify on remand, the district court
“filed a memorandum which relied on the judge’s own
recollection and the testimony of another court reporter,” who was “expert in the reading of a reporter’s

22
notes.” Id. The court included in the record “a transcript of its charge as transcribed” by the new reporter
from the original reporter’s notes … ‘to a reasonable
stenographic certainty,’” id. at 1056-57, which the
court of appeals found to be “an accurate transcription
of what the judge told the jury.” Id. at 1058.
c. These three decisions—spanning five decades
and decided by different courts of appeals—exemplify
a host of similar cases applying flexible procedures to
remedy record omissions in federal criminal appeals.
From that chorus of precedent, two key principles
emerge.
First, the courts of appeals have never imposed
rigid procedural hurdles on a litigant’s ability to supplement the record under Rule 10. That flexible approach accords with the text of Rule 10(e), which
places no procedural preconditions on record supplementation. It also accords with Rule 10’s predecessor,
which permitted a court of appeals to correct record
omissions “on a proper suggestion or its own initiative.” Fed. R. Civ. P. 75(d) (as amended, 1966). As this
Court has put it, that broad authorization gives the
courts of appeals the power to supplement the record
“in the interest of seeing that substantial justice is
done.” Sheridan, 329 U.S. at 393. Consistent with
that instruction, no court has previously suggested,
for example, that an appellant who lacks the means
to prepare a “statement of the evidence or proceedings” under Rule 10(c) must say so via a declaration,
let alone has any court announced such a requirement
without first giving the appellant an opportunity to
submit a declaration.
Under that flexible approach, the courts of appeals

23
have regularly exercised their broad power over the
appellate record to correct significant record omissions even in the absence of formal requests from the
litigants. See, e.g., Preciado-Cordobas, 981 F.2d at
1210 (ordering sua sponte remand to supplement record); United States v. Brand, 80 F.3d 560, 562 (1st Cir.
1996) (similar); Convertino v. United States Dep’t of
Justice, 795 F.3d 587, 591 n.1 (6th Cir. 2015) (supplementing record sua sponte); Yarrington v. Davies, 992
F.2d 1077, 1081 (10th Cir. 1993) (“Petitioner has not
provided a sufficient record for us to review this argument. Nonetheless, because of the seriousness of a
conviction of first degree murder, we sua sponte obtained the trial transcript.”).
By contrast, courts have held that a defendant has
defaulted on a request for record supplementation
mainly where he willfully failed to avail himself of
readily available avenues to secure the omitted material. See, e.g., United States v. Sierra, 981 F.2d 123,
127 (3d Cir. 1992) (declining to remand for reconstruction due to “absence of … minimal effort” to secure
missing evidence by appellate counsel); Stevo v. Frasor, 662 F.3d 880, 885 (7th Cir. 2011) (“Where we have
previously declined to exercise our authority to supplement the record, our purpose has often been to
avoid rewarding parties for failing to correct known
deficiencies.”).
Second, federal courts have consistently embraced a flexible and pragmatic approach to reconstructing unavailable record materials. District
courts frequently refer to their own notes and files to
reconstruct trial proceedings. See, e.g., United States
v. Huggins, 191 F.3d 532, 538 (4th Cir. 1999) (“the

24
district court supplemented the transcript with copies
of documents and trial notes retained by the court”);
United States v. Pace, 10 F.3d 1106 (5th Cir. 1993)
(“[T]he trial court issued an order stating that the
missing jury instruction was a pattern Allen charge.
The trial court also ordered the clerk to prepare and
certify a supplemental record containing a pattern Allen charge.”); Preciado-Cordobas, 981 F.2d at 1210
(“We advised the district judge that in attempting to
reconstruct the record, he may use his notes….”); Perkins, 498 F.2d at 1056 (“the Court’s recollection of the
Charge as given and trial notes were also utilized”).
District courts likewise do not hesitate to secure
the assistance and records of trial participants, including the government and defense counsel, to piece
together what happened at trial. See, e.g., United
States v. LaSpesa, 956 F.2d 1027, 1034-35 (11th Cir.
1992) (“the district court called upon former defense
counsel, prosecutors, and court reporters to assist in
the reconstruction effort”); Brand, 80 F.3d at 562
(“The government filed what the parties agreed is a
‘reasonable recreation’ of its main closing argument,
as well as a recreation of its rebuttal….”); United
States v. Sevilla, 174 F.2d 879, 880 (2d Cir. 1949) (explaining that district court reconstructing missing
trial evidence “may … interrogate the witnesses, the
counsel who appeared at trial for the government and
for the defendant, and any other person having reliable information”).
2. The Third Circuit’s decision breaks with this
long chain of precedent—a departure with especially
grave consequences for a federal capital appellant.

25
Savage clearly and repeatedly requested reconstruction of the record. In the district court, he moved
for a “Complete and Accurate Record for Appeal,” asking the court to “supplement[] the record” with the
missing undocketed correspondence, Reply In Support of Motion, 2:07-cr-00550 (July 5, 2017), ECF No.
1671 at 11, and to help “reconstruct[]” the unrecorded
proceedings,” id. at 13. After the district court denied
his motion, Savage asked the Third Circuit to “make
available, or direct the district court to make available, those portions of the record that counsel are still
missing” and to “direct[] the district court to make all
reasonable efforts to help Savage’s counsel identify
and reconstruct unrecorded proceedings in this case.”
A-2086, A-2126. He then reiterated that request in his
merits brief, saying that “the Court should, at the
very least, remand to the district court and direct it to
make a reasonable effort to recover and reconstruct
the missing record material.” AB360.
Dismissing these explicit requests to reconstruct
and supplement the record, the Third Circuit ruled
that Savage had “fail[ed] to pursue Rule 10 reconstruction.” App. 16a. Although Savage’s district court
motion explained that his appointed appellate counsel
“cannot ... reasonably be expected to submit a statement of what occurred” in off-record conferences they
did not attend, A-1009, the appellate court foisted a
strict and unfounded prerequisite on Savage, holding
that Rule 10(c) required Savage himself to submit a
declaration stating that he could not recall what occurred in sidebars and in-chambers conversations for
which he was not present (and in which criminal defendants typically do not participate). App. 22a.

26
And although Savage repeatedly requested the
missing correspondence between the parties and the
district court and identified specific appellate issues
to which such material could pertain, the Third Circuit faulted him for failing to “articulate[] how the
purportedly missing items could or would give rise to
‘any difference[s] … about whether the record truly
discloses what occurred in the district court’” and to
“have any such differences settled by the District
Court,” App. 18a n.9. The Third Circuit described Savage’s request for a remand to secure the missing correspondence and reconstruct the untranscribed proceedings as a “stunning request for discovery of the
District Court’s files, the District Judge’s personal
notes, and the work-product of every lawyer involved
in the case.” App. 23a.
As explained below, those unprecedented rulings
have no basis in Rule 10’s plain text. More fundamentally, they flout longstanding federal precedent allowing defendants to supplement the record as appropriate, using all manner of available procedures and recognizing the government’s and court’s obligation to
assist in that effort. As those precedents demonstrate,
the door to relief under Rule 10 is not a secret portal—
to be cracked open only if newly appointed appellate
counsel recites some magic phrase qualifying for the
district court’s help in reconstructing missing portions of the record. And those precedents also make
clear that requests for assistance from the government and district court are not, as the Third Circuit
held, “stunning request[s] for discovery,” App. 23a,
but pragmatic and reasonable means that courts routinely use to fill in a record when appellate counsel

27
has no other means to do so.
The Third Circuit’s decision thus throws unbroken
federal appellate practice into doubt. Its imposition of
rigid atextual preconditions on the invocation of Rule
10 threatens court-appointed appellate counsel with
procedural traps as they endeavor to ensure that the
appeals of their indigent clients are heard on a
complete record. And in holding that the government
and district court have no affirmative obligation to assist appointed appellate counsel with record reconstruction, the Third Circuit’s Rule disturbs longstanding precedents endorsing precisely such assistance.
This sharp departure from prior practice would
merit this Court’s review under any circumstances.
But review is especially warranted because the Third
Circuit’s imposition of unprecedented procedural obligations had the deleterious effect of limiting the appellate record in a capital appeal. The Court should
grant certiorari to remove the uncertainty generated
by the Third Circuit’s decision and reaffirm settled
practice allowing flexible reconstruction of the record
in federal criminal appeals.
II.

The Third Circuit misread Rule 10.

The Third Circuit’s decision misconstrues Rule 10,
larding with it procedural requirements nowhere present in the rule’s text. The imposition of atextual procedural hurdles in a federal capital appeal further
merits this Court’s review.
1. Contrary to the Third Circuit’s ruling, nothing
in Rule 10(c) requires an appellant to declare what he
cannot remember before he is entitled to relief.

28
The Third Circuit appeared to rest its refusal to
order reconstruction of off-record conferences at Savage’s trial on its conclusion “that Savage has never
formally sought to reconstruct any untranscribed conversation” under Rule 10(c). App. 22a. The court rejected Savage’s explanation that his appellate counsel
lacked the means to prepare a Rule 10(c) statement
because they did not participate in the trial and trial
counsel could not or would not assist them, see supra
at 12, 14, holding that in such a circumstance the “defendant may submit a declaration saying he does not
remember what happened.” App. 22a. That holding
lacks any legal basis.
Rule 10(c) merely states that when a transcript of
a hearing is unavailable, an appellant “may prepare
a statement of the evidence or proceedings from the
best available means, including the appellant’s recollection.” Fed. R. App. P. 10(c). When a defendant prepares such a statement, it “must be served on the appellee, who may serve objections or proposed amendments,” before the statement, objections, and amendments are “submitted to the district court for settlement and approval.” Id.
By its terms, Rule 10(c) assumes that the appellant has some “means” to “prepare a statement of the
evidence or proceedings.” It says nothing about how
to proceed where, as here, the appellant has no such
means because he did not participate in relevant offthe-record sidebars and in-chambers conferences (of
which there were scores during this months-long
trial), his appellate counsel did not participate in trial
at all, and his trial counsel were unable or unwilling

29
to assist. Nothing in the rule suggests that a defendant in such circumstances must submit a “declaration
saying he does not remember what happened.” App.
22a. A declaration saying nothing about the evidence
or proceedings plainly does not constitute a “statement of the evidence or proceedings” within Rule
10(c)’s meaning. And Rule 10(c) cannot reasonably be
read to require an appellant to explain his inability to
prepare such a statement by way of declaration, rather than as Savage did here: in a motion—indeed,
multiple motions—describing the missing material to
the best of his appellate counsel’s knowledge and explaining appellate counsel’s inability to reconstruct
the proceedings without assistance from the district
court, prosecutors, and the various defendants’ trial
attorneys. See supra at 12, 14.
In support of its novel declaration requirement,
the Third Circuit cited United States v. Wilson, 16
F.3d 1027 (9th Cir. 1994). But Wilson did not endorse—let alone mandate—a declaration from the defendant. It merely noted in its factual discussion that
the defendant there had “submitted to the district
court a declaration that neither he nor his attorney
could recall the details of … missing testimony.” Id.
at 1029.
Nor does any other authority support such a requirement. To the contrary, prior precedent consistently recognizes that where new appellate counsel
represents a defendant on appeal, both trial courts
and courts of appeals can initiate reconstruction of
missing transcripts under Rule 10(e)(2), which
broadly authorizes courts to correct any “omission or
misstatement” and create a “supplemental record.”

30
See LaSpesa, 956 F.2d at 1035 (endorsing “careful reconstruction” of untranscribed proceedings “in accordance with” Rule 10(e)); United States v. Selva, 559
F.2d 1303, 1304 (5th Cir. 1977) (citing Rule 10(e) as
basis for remand to reconstruct untranscribed proceedings); Perkins, 498 F.2d at 1056 (noting that “errors in recording and transcribing verbatim accounts
of the trial proceedings” were corrected under Rule
10(e)). The Third Circuit’s declaration requirement
lacks any legal basis.
Making matters worse, Savage had no notice of
this extra-textual requirement. It is especially unfair
to announce and retroactively apply such a requirement for the first time in a capital case where appellate counsel made clear that they did not know what
occurred even after spending years diligently trying
to fill the gaps in the record. See Ford v. Georgia, 498
U.S. 411, 423-24 (1991) (appellate court should not
create new procedural rule to evade capital defendant’s constitutional claim).
2. The Third Circuit also erred by refusing to order
the district court to supplement the appellate record
with written trial exchanges between the court and
other trial participants.
The court of appeals grounded that decision in its
conclusion that Savage failed to abide by Rule
10(e)(1)’s procedural requirements:
Savage has not articulated how the purportedly
missing items could or would give rise to “any
difference[s] ... about whether the record truly
discloses what occurred in the district court,”
and, indeed, failed to have any such differences

31
settled by the District Court, as is his obligation.
App. 18a n.9 (quoting Fed. R. App. P. 10(e)(1)). But
Rule 10(e)(1) governs only “difference[s]” among the
parties about the record. Id. It is a mechanism for
“resolution of a dispute concerning the contents of the
record,” Moore, 20 Moore’s Federal Practice § 310.40
(emphasis added), such as “whether what is in the record is correct, or whether what is in the file was actually before the district court.” Griffin, 1 Federal Criminal Appeals § 6:29.
A different provision, Rule 10(e)(2), ensures that
the record is complete. It instructs that if “anything
material to either party is omitted … in the record by
error or accident, the omission … may be corrected
and a supplemental record may be certified and forwarded … on stipulation of the parties,” “by the district court” or “by the court of appeals.” Fed. R. App.
P. 10(e)(2); see also Wright & Miller, 16A Fed. Prac. &
Proc. Juris. § 3956.4 (5th ed.) (“For litigants seeking
to remedy omissions … in the record there are three
possible avenues.”).
Again, Rule 10(e)(2) places no procedural prerequisites on a party’s ability to seek record supplementation, nor does it limit the district court of court of
appeals’ ability to add missing materials to the appellate record. And the courts of appeals have regularly
employed Rule 10(e)(2) themselves to supplement the
appellate record with missing materials from the district court’s files—the exact relief Savage seeks here.
See, e.g., United States v. Greco, 938 F.3d 891, 896
(7th Cir. 2019) (supplementing record under Rule
10(e)(2) with Probation Office report that the district

32
court considered but did not docket until after appeal
was pending); Stevo, 662 F.3d at 885 (supplementing
record under Rule 10(e)(2) to include undocketed form
reflecting parties’ consentto have magistrate judge
preside); Ruff, 472 F.3d at 1047 & n.4 (supplementing
record under Rule 10(e)(2) to include correspondence
between judges on potential prosecutorial misconduct).
Here, Savage attempted to supplement the record
to include the omitted written communications
through all three means authorized by Rule 10(e)(2).
First, appellate counsel sought to correct the record
by seeking the government’s help to identify omitted
material. See Fed. R. App. P. 10(e)(2)(A); AB 345
(counsel undertook “informal outreach to the district
court, the government, and defendants’ trial counsel”). When that effort was rebuffed, Savage next filed
a Rule 10 motion with the district court, seeking “the
relief required to obtain a complete and accurate record.” A-859; see Fed. R. App. P. 10(e)(2)(B). And when
that effort failed, Savage’s counsel filed another Rule
10 motion, this time with the Third Circuit. See A2085-2377.
The Third Circuit’s contention that Savage failed
to fulfill his “obligation” to seek undocketed record
material before the district court is therefore wrong
twice over. First, under Rule 10(e)(2)—the appropriate standard here—there is no particular procedure
to be followed in seeking a record correction. Savage’s
Rule 10 motion before the district court, explicitly
seeking that the appellate record be supplemented
with omitted material in the district court’s files, was
plainly sufficient. Second, Rule 10(e)(2) also permits

33
a litigant to seek relief from the court of appeals even
where they did not seek such relief in the district
court: Rule 10(e)(2) independently allows the court of
appeals to act where material information is missing
from the appellate record. See Fed. R. App. P.
10(e)(2)(C); Greco, 938 F.3d at 896 (“Even if the district court hadn’t already considered the issue, we
have the authority to independently correct the record
in cases like this.”).
The court of appeals misinterpreted the requirements of Rule 10(e) in denying Savage’s request based
on an inapposite provision addressing disputes about
the appellate record’s accuracy.
3. The Third Circuit’s errors in addressing what it
recognized as the “most foundational claim of error”
in a federal capital appeal, App. 14a, call out for this
Court’s review.
This Court has long emphasized that “direct appeal is the primary avenue for review of a conviction
or sentence” in death-penalty cases. Barefoot v. Estelle, 463 U.S. 880, 887 (1983). But that admonition
assumes that a direct appeal affords the condemned
prisoner the complete record necessary for full appellate review. Appellate review of capital sentences on
such a “complete record of the trial” serves as a “safeguard against arbitrariness and caprice.” Gregg v.
Georgia, 428 U.S. 153, 167, 198 (1976) (Op. of Stewart, Powell, Stevens, JJ.). This Court has thus reversed the appellate courts where they have “refused
to consider” key portions of the record, and has “emphasized … the importance of reviewing capital sentences on a complete record.” Dobbs v. Zant, 506 U.S.

34
357, 358 (1993). Congress has reaffirmed the importance of a complete record in the Federal Death
Penalty Act, which requires the appellate courts to
“review the entire record” in a capital appeal and provides specific protections for defendants in capital
cases. 18 U.S.C. § 3595(b).
The Third Circuit’s choice to deny a federal capital
defendant that vital protection based on a plainly erroneous reading of Rule 10 undermines a key premise
of the federal capital punishment system and requires
this Court’s intervention.
III.

The question presented holds exceptional
importance for federal appellate practice.

The Third Circuit’s erroneous interpretation of
Rule 10 raises the specter of hidden procedural traps
and calls into question the responsibility of district
and appellate courts to ensure a complete and accurate record in federal appeals. Although it has the potential to adversely affect any litigant in the courts of
appeals, the decision poses especially acute hazards
for the appointed appellate counsel who handle thousands of indigent criminal appeals each year in federal courts.
For almost eighty years, this Court has recognized
the particular importance of a “proper record on appeal” in “criminal proceedings against poor persons in
federal court,” encouraging appellate courts, when appropriate, “to remand [criminal] cause[s] for the settlement” of the record. Miller v. United States, 317
U.S. 192, 193, 199 (1942). The federal courts of appeals decide nearly 10,000 criminal appeals every

35
year, the lion’s share of which involve indigent criminal defendants.2
It is common practice for courts to appoint specialized appellate counsel—who do not participate in trial
proceedings and lack firsthand knowledge of what
transpired in the district court—to handle such appeals. A fundamental duty of appointed appellate
counsel is to obtain and review the entire districtcourt record. See American Bar Association, Criminal
Justice Standards for the Defense Function 4-9.3(d)
(4th ed. 2017). A complete record is critical to appellate counsel’s ability not only to identify objections,
id., but also to raise a “plain error that affects substantial rights,” which may be considered on appeal
“even though it was not brought to the court’s attention” at trial. Fed. R. Crim. P. 52(b). As this Court has
put it, “when … new counsel represents the indigent
on appeal, how can he faithfully discharge the obligation which the court has placed on him unless he can
read the entire transcript? His duty may possibly not
be discharged if he is allowed less than that.” Hardy
v. United States, 375 U.S. 277, 279-80 (1964).
Unless it is reversed, the Third Circuit’s unprecedented decision will cast a shadow over appellate
counsel’s ability to discharge that critical duty. The
See United States Courts, Federal Judicial Caseload Statistics
2019, https://www.uscourts.gov/statistics-reports/federal-judicial-caseload-statistics-2019 (“Criminal appeals held steady, increasing less than 1 percent to 9,697”); Bureau of Justice Assistance, Contracting for Indigent Defense Services: A Special Report at 3 n.1 (April 2000), https://www.ncjrs.gov/pdffiles1/bja/
181160.pdf (“It is widely estimated that 60 to 90 percent of all
criminal cases involve indigent defendants.”).
2

36
decision replaces the longstanding assurance of flexible collaboration to secure missing portions of the record with the threat of unwritten waiver risks and judicial obstruction in matters as simple as securing
trial correspondence. Without any basis in Rule 10’s
text, it stands to upset decades-old practices in the
cases that make up a sizable portion of the federal appellate docket. The Court should grant review to remove that cloud and reaffirm well-established principles of federal appellate procedure.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.

37
Respectfully submitted,
Barry J. Fisher
OFFICE OF FEDERAL PUBLIC
DEFENDER
39 North Pearl Street,
5th Floor
Albany, NY 12207
(518) 650-9031

Jonathan Schneller
Counsel of Record
Sarah E. Higgins
O’MELVENY & MYERS LLP
400 S. Hope St.
Los Angeles, CA 90071
(213) 430-6000

Madeline S. Cohen
1942 Broadway, Suite 314
Boulder, CO 80302
(303) 402-6933

Grace E. Leeper
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5300

barry_fisher@fd.org

Lawrence S. Lustberg
GIBBONS, P.C.
One Gateway Center
Newark, NJ 07102
(973) 596-4731

March 29, 2021

